OVERSIGHT OF AIRPORT IMPROVEMENT
   PROGRAM HURRICANE GRANTS
        Federal Aviation Administration

         Report Number: AV-2007-014
        Date Issued: December 13, 2006
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Oversight of Airport                                                  Date:    December 13, 2006
           Improvement Program Hurricane Grants
           Federal Aviation Administration
           Report Number AV-2007-014
  From:    David A. Dobbs                                                                  Reply to
                                                                                           Attn. of:   JA-10
           Assistant Inspector General for Aviation and
            Special Program Audits
    To:    Assistant Administrator for Financial Services and
            Chief Financial Officer

           This report presents the results of our review of the Federal Aviation
           Administration’s (FAA) oversight of funds provided to airports to repair damage
           caused by Hurricanes Katrina and Rita. FAA funds capital improvements for
           airports through its Airport Improvement Program (AIP). As part of this program,
           FAA maintains discretionary grant funds1 that can be used to help airport
           operators fund projects, such as runway and taxiway construction and
           rehabilitation, land acquisition, and airfield lighting and signage.           AIP
           discretionary funds generally cannot be used for construction of terminals or
           hangars or to fund non-aviation development, such as parking lots and retail space.

           After Hurricanes Katrina and Rita struck the Gulf Coast in August and September
           of 2005, FAA moved quickly to provide airport grantees with discretionary
           funding remaining from its 2005 budget to help them resume normal operations as
           soon as possible. Unlike the Highway Trust Fund, the Airport and Airway Trust
           Fund did not have a separate relief fund to use for emergency repairs.

           The Secretary of Transportation believed it critical that the Department provide
           effective oversight and accountability of hurricane expenditures.            The
           Department’s Office of the Assistant Secretary for Budget and Programs and
           Chief Financial Officer prepared a Hurricane Financial Stewardship Control Plan
           outlining existing and needed internal controls to safeguard taxpayer funds spent
           1
               FAA also provides AIP entitlement grants that are allocated to airports based on a formula that considers factors such
               as airport type and number of passenger boardings. In FY 2005, FAA distributed approximately $1.8 billion in
               entitlement (or formula) grants and over $1.7 billion in discretionary grants.
                                                                                                          2


   on hurricane relief and recovery activities. As part of this plan, FAA committed to
   conducting heightened oversight of grants for the reconstruction of Gulf Coast
   airports damaged by Hurricanes Katrina and Rita.


   OBJECTIVE, SCOPE, AND METHODOLOGY
   The objective of this program audit was to determine if FAA’s procedures and
   controls for oversight of AIP grants issued to help in rebuilding hurricane-
   damaged Gulf Coast airports were sufficient to protect taxpayer interests. To
   accomplish our objective, we interviewed FAA management officials and staff
   located in Washington, District of Columbia, and FAA’s Southern and Southwest
   Regional offices in Atlanta, Georgia, and Fort Worth, Texas, respectively. We
   also spoke to airport officials in New Orleans, Louisiana. Finally, we examined
   FAA guidance related to AIP grants, relevant grant files, and other documentation
   related to FAA’s response to these hurricanes and the damage they caused. We
   conducted the audit from September 2005 to August 2006. This audit was
   performed in accordance with Generally Accepted Government Auditing
   Standards prescribed by the Comptroller General of the United States. Our audit
   included tests of procedures and records as we considered necessary to provide
   reasonable assurance of detecting abuse and illegal acts.


   RESULTS IN BRIEF
   Hurricanes Katrina and Rita caused over $100 million in damages at airports in the
   Gulf Coast region. The most heavily damaged airports were located in New
                                                        Orleans, Louisiana; Biloxi,
    Figure. Hurricane Damage in Biloxi                  Mississippi; Lake Charles,
                                                        Louisiana; and Beaumont,
                                                        Texas. These and other
                                                        Gulf Coast airports were
                                                        immediately closed because
                                                        of hurricane damage, such
                                                        as runways and taxiways
                                                        flooded or blocked with
                                                        debris and airport terminal
                                                        buildings and hangers with
                                                        damage to roofs and
                                                        windows from high winds
                                                        (see Figure).

Damage caused by Hurricane Katrina at Gulfport-Biloxi International Airport.   FAA quickly determined
Source: FAA Southern Regional Airports Division                                that just over $60 million of
                                                                                                          3


the damages caused by the hurricanes was eligible for AIP discretionary funding.
FAA initially awarded 10 grants totaling nearly $40.5 million (see Exhibit) to Gulf
Coast airport grantees to assist in rebuilding efforts. According to FAA
Headquarters officials, FAA awarded the grants on an expedited basis to help
restore the airports to operational status and ensure their availability for use by
first responders. FAA included conditions in four of the initial grant agreements
requiring sponsors to seek reimbursement from other sources, such as insurance
and the Federal Emergency Management Agency (FEMA), and to return the
Federal share of any recoveries to FAA. However, FAA did not initially plan any
heightened oversight of these grants to ensure that any such funds were returned
and that expenditures for hurricane damage complied with all grant requirements.
In our opinion, the scope of the damage caused by these hurricanes and the lack of
planning FAA and airport personnel were able to do before awarding these grants
created an increased potential for fraud, waste, and abuse, thus making heightened
oversight a necessity. Specifically, the 10 grant awards were:

      • based on preliminary damage estimates rather than actual cost bids, which
        FAA normally uses. This increased the potential for overpayments to
        grantees because FAA relies on grantees both to limit reimbursement
        requests to costs incurred and to refund any overpayments when the
        projects are completed.

      • issued without completing many of the normal steps in the grant award
        process, such as consultation with users, project development, preliminary
        design, and public hearings. These steps allow FAA to substantiate both
        the need for the project and the validity of the project costs.

      • issued before controls were established to prevent potential duplicate
        payments to grantees given the fact that multiple groups, including FEMA
        and private insurance companies, were assisting or planning to assist in re-
        building these airports.

FAA took positive steps to address weaknesses in its early grant award process. In
March 2006, FAA issued new guidance to enhance its oversight of AIP funding
for hurricane repairs in response to our concerns with the increased risks created
by Hurricanes Katrina and Rita. In addition, FAA withdrew 7 of the 10 grants in
part to allow airports time to obtain bids with more realistic cost information for
repairing hurricane damage. Since work needed to restore operations to the
hurricane-damaged airports was already completed by personnel from other
airports, only a small amount of the hurricane grant money ($17,121) had actually
been disbursed when FAA made the decision to withdraw the grants.2


2
    AIP grant funds are not disbursed until airports submit requests based on actual expenses incurred.
                                                                                4


Withdrawing the grants also permitted FAA to increase the amount awarded to
grantees because Congress passed legislation3 in October 2005 that decreased the
amount of matching funds airports had to provide and expanded the type of
projects eligible for AIP discretionary funding for Hurricanes Katrina and Rita.
FAA officials wanted grantees to be able to take advantage of the additional
funding benefits this legislation provided.

FAA Headquarters officials advised us that as of September 2006, over
$102 million in new grants had been issued to airports damaged by Hurricanes
Katrina and Rita. Further, according to FAA managers, all new grants are subject
to the new grant oversight guidance. We believe that FAA’s full implementation
of its new oversight requirements will significantly strengthen controls over
hurricane-related grant expenditures. We recommend that the Acting Associate
Administrator for Airports develop a plan to verify that district office personnel
are effectively implementing new guidance requiring grantees to submit timely,
detailed expenditure reports and requiring project managers to review the reports
and conduct required site visits verifying that grant funds are being spent as
intended.


SUMMARY OF MANAGEMENT COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE
We provided FAA with a copy of our draft report on September 15, 2006. On
November 20, 2006, FAA provided us with its formal response to our draft, which
is contained in its entirety in the Appendix. FAA agreed with our findings and
recommendation and its corrective actions are responsive. We consider the
recommendation closed, subject to follow-up provisions of Department of
Transportation Order 8000.1C. Our recommendation and a summary of FAA’s
response can be found on pages 9 and 10 of this report.


DETAILED OBSERVATIONS

FAA Responded Quickly but Did Not Plan Heightened Grant
Oversight
Immediately after Hurricane Katrina struck the Gulf Coast and again after
Hurricane Rita, FAA initiated efforts to determine the scope of the damage and the
immediate needs of the affected airports. It awarded 10 AIP grants totaling nearly
$40.5 million (see Exhibit) to repair damage to terminals, signs, lighting, and

3
    Public Law No. 109-87, October 7, 2005 (119 Stat. 2059).
                                                                                  5


fencing and to remove flooded structures. FAA correctly focused on restoration of
operations, but it did not plan heightened oversight for these grants. Four of the
grant agreements contained conditions regarding reimbursement of grants from
other funds available to airports, such as FEMA grants or insurance proceeds, and
FAA did visit some of the airports in an effort to assess damages. However, FAA
generally planned to oversee grants awarded to Gulf Coast airports using its
existing grant procedures.

We did not audit these existing procedures but noted two significant factors that
weakened FAA’s ability to provide oversight during the special circumstances of
devastation and extreme conditions caused by the hurricanes. First, the existing
procedures primarily rely on grantee assurances and certifications that grant
requirements are met and that funds are spent in accordance with grant provisions.
Second, the procedures require only limited FAA follow-up to verify the accuracy
of these assurances and certifications.

FAA’s existing AIP procedures and controls include significant FAA involvement
in project planning and development; however, these procedures do not provide
the kind of heightened oversight needed to mitigate increased risks of fraud, waste,
and abuse related to Hurricanes Katrina and Rita repair efforts. FAA’s AIP
guidance4 focuses on grant award and close-out activities rather than project
oversight. For example, the AIP handbook does not require FAA program
managers to:

    • conduct a pre-established number of site visits at airports with ongoing AIP
      projects to verify that projects are on schedule and within estimated costs.
      Although the procedures do suggest that “periodic inspections may be
      scheduled,” program managers individually determine the number of site
      visits, if any, that are needed.

    • analyze quarterly construction and periodic financial reports submitted by
      grantees to verify that information in the reports is accurate. In addition,
      grantees are permitted to submit reports that do not contain the information
      needed for effective FAA oversight. For example, some reimbursement
      request reports accepted by FAA only show total net disbursements. In fact,
      the grantee may never be required to show how the money is spent. Although
      there is a reimbursement request form that does require grantees to identify
      costs by activity, such as administrative expense, architectural engineering,
      construction costs, and project inspection fees, FAA managers can allow
      grantees to submit the form with only net disbursements.



4
    Order 5100.38C, “Airport Improvement Program Handbook,” June 28, 2005.
                                                                                 6


 • obtain supporting documentation (e.g., actual invoices) to verify the accuracy
   of information in the reports. For example, the FAA program manager for the
   Louis Armstrong New Orleans International Airport, who does obtain more
   detailed financial reports from grantees, acknowledged that he did not closely
   review or verify the reports’ accuracy by comparing them to actual invoices.

This level of oversight may be sufficient for regular AIP grant awards partly
because the grant awards are preceded by extensive planning and FAA
involvement. For example, personnel from FAA’s development office for
Louisiana airports begin working with grantees to meet eligibility requirements as
long as 3 years before the award of a grant. This process gives FAA extensive
knowledge of the scope, cost, and potential problems with grant projects. FAA,
however, could not follow this process in awarding grants following Hurricanes
Katrina and Rita because quick restoration of air service to Gulf Coast
communities was vital. Vulnerabilities resulted, and we identified the following
potential risks:

 • The initial 10 hurricane grant awards were primarily based on damage
   estimates rather than actual contract bids, which FAA normally prefers to use
   as support for AIP grant awards. FAA officials from the Office of Airport
   Planning advised us that the reason they prefer to issue grants based on bids is
   to ensure that grant funds are not tied up (and unavailable for other projects)
   because of the tendency of estimates to err on the high side rather than the low
   side. However, the officials also advised us that, in the case of Hurricane
   Katrina, the severity of damage and the crisis prevented FAA from getting
   information more reliable than verbal damage estimates.

   Awarding the grants based on estimates increased FAA’s reliance on airport
   grantees to report and return any excess grant funds if the estimates were
   higher than actual project costs. Conversely, grantees were also at risk if the
   estimates were significantly lower than the actual costs because AIP grants
   cannot be increased by more than 15 percent once issued.

   FAA’s risk was increased further after Congress raised the Federal share for
   hurricane-related AIP grants from 75 percent to 100 percent for New Orleans
   International Airport and from 95 percent to 100 percent for airports that
   received the other nine grants. Because grantees were no longer required to
   share in the cost of these projects, they had less incentive to control costs.

 • Multiple groups, including FEMA and various private insurance companies,
   were assisting or planning to assist in rebuilding Gulf Coast airports. As a
   result, there was a potential for duplicate payments to airport owners for
   hurricane repairs. For example, after the award of a $5.3 million grant to
   repair damages at the airport in Beaumont, Texas, the airport manager
                                                                                              7


      informed FAA officials that he expected private insurance would cover the
      repairs to the terminal building that were included in the grant request.

      In addition, we noted that the $15.2 million grant to the New Orleans
      International Airport initially included a $2.2 million perimeter fence repair
      project. According to FAA, the fence had been repaired and paid for through a
      combination of work completed by personnel from other airports, FEMA
      funds, and private insurance. FAA included provisions in 4 of the 10 initial
      grant agreements regarding reimbursement of grants from other funds available
      to the airports, such as FEMA funds and private insurance, but FAA planned
      no additional oversight to ensure grantees complied with these conditions.

    • Post-hurricane staffing for at least one airport left fewer staff available to
      manage grant expenditures. Following the hurricanes, the New Orleans
      International Airport experienced financial difficulties as a result of a
      substantial loss of passenger revenue.5 Consequently, airport management cut
      operations staffing levels by almost half, decreasing from a pre-Katrina level of
      222 employees to just 123 employees after the hurricane. The airport
      accounting staff was cut from 10 to 7, leaving fewer staff to manage grant
      expenditures.


FAA Has Taken Steps To Strengthen Its Oversight of Hurricane-
Related AIP Grants
The first action FAA took to strengthen its oversight of hurricane-related grants
was to issue new guidance requiring program managers to increase monitoring
activities for these grants. The second was to withdraw most of the initial grants
with award amounts that were based on estimates. We believe these actions will
strengthen FAA’s oversight of hurricane grant expenditures.


FAA Developed New Guidance
In March 2006, FAA issued a memorandum to program managers outlining
specific procedures for monitoring hurricane relief grants in response to our
concerns. For example, to avoid duplicate or overlapping reimbursements from
other funding sources, FAA will make every effort to offer grants only after the
amounts of insurance proceeds or other reimbursements have been determined.
As a result, the grant amounts should more closely correspond to the specific
amounts needed to complete airport projects. In addition, FAA added new
language to each grant that clarifies grantee responsibilities related to


5
    Total passenger volume decreased 54 percent in December 2005 compared to December 2004.
                                                                                  8


reimbursements from third parties to address concerns about payments from
private insurance.

FAA’s new guidance also requires that before issuing a grant offer, program
managers must verify damage and project needs through on-site inspection or
review of visual documentation (e.g., photographs or digital images). In addition,
program managers are now required to make quarterly visits to project sites. The
guidance requires that grantees submit construction progress and financial outlay
reports more frequently (monthly instead of quarterly) and in more detail. They
must also submit supporting invoices within 15 days of grantee fund withdrawals,
instead of the quarterly submittal previously required.

FAA determined that the need for immediate funding had diminished because
critical temporary repairs to restore airport service were completed with assistance
from other airport operators. Immediately following the hurricanes, FAA, the
Association of American Airport Executives, and the Airport Council
International-North America helped coordinate temporary repairs at Gulf Coast
airports. For example, officials from the Houston Airports System sent as many as
30 airport personnel with 14 vehicles to the New Orleans International Airport to
assist with patching roofs and securing damaged perimeter security fences. In
total, personnel from 22 airports—including those in Pensacola, Florida; Atlanta,
Georgia; Orlando, Florida; Savannah, Georgia; Phoenix, Arizona; Portland,
Oregon; San Diego, California; and Washington, District of Columbia—provided
assistance to re-establish operations at the hurricane-damaged Gulf Coast airports.


FAA Withdrew Most of the Grants Based on Estimates
In October 2005, Congress passed legislation granting the Secretary of
Transportation the authority to expand the type of projects that could be eligible
for discretionary AIP grant funding at airports damaged by these hurricanes. For
example, the Secretary can now issue grants to repair or replace hurricane-
damaged public-use facilities, such as airport terminals. The expanded authority
also (1) included provisions to fund some emergency operating costs for those
airports and (2) increased the Federal Government share of these grants to
100 percent from the previous share of 75 percent for the New Orleans
International Airport and 95 percent for other Gulf Coast airports.

As a result, by January 2006, FAA had taken steps to withdraw 7 of the 10 initial
grants that were awarded based primarily on damage estimates. Officials at the
damaged airports had not made any requests for reimbursements from the grants
because their immediate operational needs were addressed with emergency repairs
completed by staff from other airports. Another grant was reduced and closed
because only a small amount of funds had been expended. The other two grants
                                                                                  9


remained open. FAA is now working more deliberately in planning and issuing
replacement grants for hurricane repairs. For example, the reissued grants are
based on competitive bid cost data instead of estimates; this step addresses one of
the risk factors identified during our review.

The total amount of the second round of hurricane grants has more than doubled
according to updated FAA information. While FAA initially issued $40.5 million
in hurricane grants to airports damaged by Hurricanes Katrina and Rita, as of
September 12, 2006, FAA had issued over $102 million in grants. As a result of
the new legislation that expanded eligibility, the new grants will cover the cost of
most of the damage to these airports, including terminal and hangar damages,
which were previously ineligible for discretionary AIP funding.

We believe that AIP grant oversight for these new hurricane-related projects will
be improved if FAA promptly follows through with the implementation of its new
guidance.


RECOMMENDATION
We recommend that the Acting Associate Administrator for Airports develop a
plan to verify that district office personnel are effectively implementing the new
hurricane guidance. Particular attention should be given to requirements for
grantees to promptly submit the more detailed expenditure reports and program
managers to verify the appropriateness of grant fund expenditures and conduct
required site visits to review the progress of airport projects.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with a copy of our draft report on September 15, 2006. On
November 20, 2006, FAA provided its formal comments to our draft, which is
contained in its entirety in the Appendix. FAA agreed with the recommendation
outlined in the draft report and the overall finding that its process for issuing
emergency hurricane grants at the end of FY 2005 created increased risks to the
integrity of AIP funds. FAA also agreed that the emergency called for increased
oversight, which it implemented at our suggestion in early 2006. In addition, FAA
provided details regarding other circumstances or FAA actions that it believes
reduced the specific risks identified by the OIG, in whole or in part.

In response to our recommendation, FAA agreed to take two actions. First,
Regional Airports Division Managers for the Southern and Southwest Regions
will be directed to provide a detailed report at the end of each quarter to the
                                                                                   10


Manager, Airports Financial Assistance Division, APP-500, on both the status of
the projects included in the hurricane grants and the implementation of the
oversight guidance. Second, the Office of Financial Management, Internal
Controls Division, AFM-600, will be requested to include the oversight control
activities for the hurricane grants as part of its business process testing during the
internal control review for AIP grants.

FAA’s corrective actions are responsive to our recommendation, and we consider
the recommendation closed subject to follow-up provisions of Department of
Transportation Order 8000.1C.

We appreciate the cooperation of FAA representatives during this audit. If you
have any questions concerning this report, please call me at (202) 366-0500 or
Robin Hunt, Deputy Assistant Inspector General for Aviation and Special Program
Audits, at (415) 744-3090.


                                          #



cc: Assistant Secretary for Budget and Programs and
     Chief Financial Officer
    Acting Associate Administrator for Airports
    Regional Administrator, Southern Region, FAA
    Regional Administrator, Southwest Region, FAA
    Martin Gertel, M-1
    Anthony Williams, ABU-100
                                                                                                      11




   EXHIBIT. FY 2005 INITIAL HURRICANE GRANTS


                             Table 1. Southern Region Grants
Hurricane        Airport          Grant Status         Amount of            Purpose of Grant
                                                         Grant
 Katrina        Gulfport-         Reduced and           $1,633,443 Rehabilitate terminal and signage
                 Biloxi              Closed                        and remove flooded structures
                                    12/13/05
 Katrina        Gulfport-          Withdrawn                  $950,000 Mitigate hurricane damage to
                 Biloxi             12/13/05                           terminal apron

 Katrina     Bay St Louis/         Withdrawn            $2,050,000 Acquire an Aircraft Rescue and
               Stennis              12/13/05                       Firefighting (ARFF) vehicle; repair
                                                                   the ARFF building; and replace
                                                                   windcones, a rotating beacon,
                                                                   various lighting systems, a precision
                                                                   approach path indicator, signage, and
                                                                   the automated weather observation
                                                                   system
 Katrina       Mobile                  Open                $40,000 Rehabilitate wind cone and airfield
              Regional                                             signage
 Katrina    Hattiesburg-           Withdrawn               $40,000 Repair airfield signage and runway
               Laurel               12/13/05                       edge lights
              Regional
  Total Southern
  Region Grants                                        $4,713,443
  Total Southwest
  Region Grants
  (see Table 2)                                       $35,756,851
  Total Hurricane
  Grants                                              $40,470,294
 Source: FAA Southern and Southwest Region Airports Offices




   Exhibit. FY 2005 Initial Hurricane Grants
                                                                                                   12




                           Table 2. Southwest Region Grants
 Hurricane          Airport          Grant Status            Amount of           Purpose of Grant
                                                               Grant
Rita            Beaumont/SE            Withdrawn              $5,291,500 Improve terminal and ARFF
                   Texas                1/5/06                           buildings; replace windcones,
                  Regional                                               fencing, lighting, and signage;
                                                                         and replace or repair an ARFF
                                                                         vehicle
Rita             Lake Charles          Withdrawn              $7,905,900 Rehabilitate terminal, ARFF
                                        1/4/06                           facilities, and signage

Katrina          New Orleans           Withdrawn             $15,200,000 Rehabilitate rescue and
                                        12/14/05                         firefighting facilities,
                                                                         rehabilitate lighting and
                                                                         signage, enhance security, and
                                                                         improve airfield drainage and
                                                                         runway safety area
Katrina          Baton Rouge              Open                  $550,000 Update Master Plan to
                                                                         incorporate hurricane damage
Katrina and         State of           Withdrawn              $6,809,451 (1) Rehabilitate runways,
Rita               Louisiana            11/15/05                         taxiways, lighting, and ARFF
                                                                         building and improve perimeter
                                                                         fencing (at Lakefront) and
                                                                         (2) rehabilitate lighting and
                                                                         improve perimeter fencing (at
                                                                         Chennault)
   Total Southwest
   Region Grants                                             $35,756,851
   Total Southern Region
   Grants (see Table 1)                                      $4,713,443
   Total Hurricane
   Grants                                                    $40,470,294
Source: FAA Southern and Southwest Region Airports Offices




  Exhibit. FY 2005 Initial Hurricane Grants
                                                                                         13




APPENDIX. MANAGEMENT COMMENTS

                    Federal Aviation
                    Administration

Memorandum
Date: November 20, 2006
To:            David A. Dobbs, Assistant Inspector General for Aviation and Special
                Program Audits, JA-10


From:          Catherine M. Lang, Acting Associate Administrator for Airports, ARP-1
Thru:          Ramesh Punwani, Assistant Administrator for Financial Services and
                Chief Financial Officer, ABA-1

Prepared by: Barry Molar, Manager, Airports Financial Assistance Division, APP-500,
x78827
Subject:       Draft Report on Federal Aviation Administration Oversight of Airport
               Improvement Program Hurricane Grants, Project No. 06A3017A000;
               Your Memo of 09/15/06

This memorandum is provided in response to the subject report. We agree with the
recommendations outlined in the draft report and the overall finding that the Federal
Aviation Administration’s process for issuing emergency hurricane grants at the end of
FY 2005 created increased risks to the integrity of Airport Improvement Program (AIP)
funds. As the draft notes, we did adopt heightened oversight procedures for these grants
in early 2006. We wish to note that for many of the specific risk factors discussed in the
draft, other circumstances or FAA actions helped reduce the risks for the FY 2005 grants.

1. Adoption of Heightened Grant Oversight Procedures

In the “Results in Brief” and “Detailed Observations,” the draft report refers to the
FAA’s failure to plan for heightened grant oversight as increasing the risk to Federal
funds (pages 2 and 4).

We agree that with the benefit of hindsight and the audit work conducted by the Inspector
General’s staff, the unusual circumstances of Hurricanes Rita and Katrina heightened the
risk of abuse of Federal funds. Based upon FAA’s prior experience in issuing grants to
airports to assist in recovering from natural disasters, we found that existing procedures



Appendix. Management Comments
                                                                                         14


had significantly reduced the risk. These procedures included: special conditions
requiring reimbursement of funds provided by insurance; Federal Emergency
Management Agency (FEMA) grants; standard conditions requiring sponsors to seek all
other sources of compensation for damages; requirements to review bid results and to
approve notices to proceed. Given the emergency conditions and the need to provide
immediate financial relief, there was no time to develop an oversight plan before issuing
the FY 2005 grants. The extraordinary extent of the damage required a prompt response
with Federal assistance, as noted in the draft report on page 4.

Four of the grants included special conditions requiring sponsors to apply proceeds
received from other sources, such as insurance or FEMA to repay AIP grants. FAA staff
discussed with the sponsors of the remaining grants the FAA policy in this area. Even
without the special condition, grant condition #7 obligates sponsors to pursue financial
recovery from other sources when receiving AIP grants for emergency repair or
restoration, as discussed below. Other standard procedures also provided protection to
Federal funds. FAA has the right to review plans and specifications, including bid
specifications and bid tabs. A sponsor needs FAA approval to issue a notice to proceed
to its contractors.

More broadly, at the time of the emergency, FAA placed its highest priority on assisting
airports in rapidly doing the repairs and rebuilding necessary to assist in providing first
response, relief, and restoration for the entire area devastated by the hurricanes. We did
not believe that the airports and the devastated regions they served could afford to wait
while we developed enhanced oversight procedures.

It was only after issuance of the grants that FAA became aware, in large measure due to
the efforts of the OIG, that the procedures and policies we had relied on in other natural
disasters might not be sufficient to protect the AIP investment in recovery efforts in the
face of the magnitude of devastation suffered on the Gulf Coast. However, based on the
OIG’s initial review and advice regarding the potential risk to Federal funds, FAA
developed a grant oversight program to manage the risk to Federal funds.

As a result of our actions after issuance of the initial grants, we now have heightened
oversight procedures in place. This draft report has also made clear the importance of
protecting against financial risk, even in emergencies. As a result, in the future, FAA
will be able to respond quickly to emergencies and ensure that more adequate safeguards
for Federal funds are in place.

2. Financial Risks of Issuing Grants Based on Estimates

The draft report identifies the use of preliminary damage estimate as a basis for issuing
grants as a factor that heightened the risk of waste fraud and abuse (Results in Brief,
page 3; Detailed Observations, page 6). While the use of estimates had the potential to
increase risk to Federal funds, we believe other circumstances helped reduce the potential
risk. First, the award of a grant does not result in immediate transfer of funds to a
sponsor. Ordinarily, disbursements are made only after a sponsor incurs allowable



Appendix. Management Comments
                                                                                        15


project costs. Other steps must also be completed before disbursement is authorized.
The sponsor must obtain bids and award the contract. This process is subject to FAA
review. In addition, the FAA must concur in the project scope prior to the issuance of a
notice to proceed by the sponsor. These mechanisms, as well as project closeout
procedures, assure that amounts actually disbursed to the sponsor reflect actual eligible
costs incurred. The sponsors of these hurricane grants have extensive experience in
dealing with FAA grants. They fully understand that if project bids come in below the
estimated costs on which the grant is based, the FAA is entitled to and will recover the
excess.

As noted in your draft, FAA’s policy of issuing grants based on bids is not driven by risks
of fraud, waste, and abuse. Rather, it is based on maximizing the impact of available
grant funds. Specifically, the AIP statute provides a cap on upward adjustments of
grants. Given this cap, sponsors have an incentive to err on the high side, rather than the
low side in submitting cost estimates to FAA. Issuing grants based on high estimates
locks up grant funds that could otherwise be awarded on additional projects. Because of
policies and procedures in place for grant reimbursement, oversight, and closeout, the
practice does not increase the risk that sponsors will receive Federal funds in excess of
what they are eligible to receive.

3. Risk of Double Payments

The draft report identifies the potential for duplicate payments from AIP on the one hand
and insurance proceeds or FEMA on the other. The report acknowledges that four of the
ten grants issued included a special condition specifically addressing double payments,
but states that the FAA planned no oversight to ensure compliance with those conditions.
The draft report also cites examples of two airports from our Southwest Region where
FAA had knowledge that payments from other sources had or would occur.

Again, while the potential risk may have been present, we believe other circumstances
helped reduce the risk. Based on our prior experience with emergency grants, all levels
of FAA involved in issuing the grants were aware of the risk of double payments and
understood the importance of avoiding them. As noted earlier, we viewed our highest
priority in helping the airports recover so that they were available to help in the overall
recovery of the devastated region. The airports and their communities could not afford to
wait until other agencies and/or insurance claims were processed. Therefore, we
proceeded to issue grants. Four of those grants included special conditions requiring
repayment if the sponsor recovered the costs of damage or repair from other sources.
Even for the grants that did not have a special condition, FAA program managers made
sure that recipients understood their obligation to seek reimbursement from other sources
and repay the FAA the Federal share of any proceeds. This obligation is inherent in
FAA’s standard grant agreement. The standard FAA grant agreement includes a number
of standard conditions. One of them, condition 7, specifically obligates a sponsor to take
all action necessary to recover Federal funds improperly spent and return them to the
FAA. The FAA interprets this condition to include recovery of insurance proceeds and
FEMA funds.



Appendix. Management Comments
                                                                                           16



Finally, we wish to point out that the two airports in the Southwest Region specifically
named in the report were among the four airports that had the special condition in their
initial grant.

4. Risk Associated with 100 Percent Federal Share

In FY 2006, following issuance of the initial hurricane grants, Congress enacted special
legislation to increase FAA’s flexibility in awarding AIP grants for hurricane recovery.
Among other things, this legislation increased the Federal share for hurricane recovery
projects to 100 percent. The draft report lists this increase as another factor that increased
risk (“Detailed Observations,” page 6). While the increase in the Federal share had the
potential to increase the risk to Federal funds, we believe other circumstances reduced
this potential risk. The increase in Federal share did not apply retroactively to the
FY 2005 hurricane grants. An airport could take advantage of the 100 percent Federal
share only if FAA withdrew or terminated the FY 2005 grant and issued a new grant in
FY 2006. FAA did not issue the FY 2006 replacement grants until FAA adopted the new
hurricane grant oversight procedures. Therefore, the enhanced oversight procedures were
in place before the FAA added to the amount of Federal funds exposed to risk by raising
the Federal share of grants to 100 percent.


5. Response to Recommendation

Recommendation: “We recommend that the Acting Associate Administrator for
Airports develop a plan to verify that district office personnel are effectively
implementing the new hurricane guidance. Particular attention should be given to
requirements for grantees to promptly submit the more detailed expenditure reports and
program managers to verify the appropriateness of grant fund expenditures and conduct
required site visits to review the progress of airport projects.”

FAA Response: We concur that effective implementation of the oversight plan is critical
to effective protection of the Federal funds invested in the hurricane grants. We have
developed a plan for oversight of implementation consisting of two components.

1. We will direct the Regional Airports Division Managers for Southern and Southwest
   Region to provide a detailed report at the end of each quarter (for the months of
   December, March, June, and September) to the Manager, Airports Financial
   Assistance Division, APP-500, on both the status of the projects included in the
   hurricane grants and on implementation of the oversight guidance.
2. ARP will request that the Office of Financial Management, Internal Controls
   Division, AFM-600, include the oversight control activities for the hurricane
   grants as part of its business process testing during the internal control review
   for AIP grants.



Appendix. Management Comments
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not part of the original document but have been
added here to accommodate assistive technology.
                Report on Federal Aviation Administration Oversight of Airport
                           Improvement Program Hurricane Grants

                                    Section 508 Compliant Presentation

                             Initial Hurricane Grants for Fiscal Year 2005

Table 1. Southern Region Grants Totaling $4,713,443

Hurricane    Airport Receiving       Grant Status Dollar Amount                Purpose of Grant
                  Grant                              of Grant
 Katrina      Gulfport-Biloxi        Reduced and       $1,633,443   Rehabilitate terminal and signage and
                                       Closed                       remove flooded structures
                                      12/13/05
 Katrina      Gulfport-Biloxi         Withdrawn          $950,000   Mitigate hurricane damage to terminal
                                      12/13/05                      apron

 Katrina    Bay St Louis/ Stennis     Withdrawn         $2,050,000 Acquire an Aircraft Rescue and
                                      12/13/05                     Firefighting (ARFF) vehicle; repair the
                                                                   ARFF building; and replace windcones,
                                                                   a rotating beacon, various lighting
                                                                   systems, a precision approach path
                                                                   indicator, signage, and the automated
                                                                   weather observation system
 Katrina      Mobile Regional           Open               $40,000 Rehabilitate wind cone and airfield
                                                                   signage
 Katrina     Hattiesburg-Laurel       Withdrawn            $40,000 Repair airfield signage and runway edge
                  Regional             12/13/05                    lights

Source: FAA Southern and Southwest Region Airports Offices
Table 2. Southwest Region Grants Totaling $35,756,851

Hurricane Airport Receiving Grant Status Dollar Amount                Purpose of Grant
               Grant                        of Grant
 Rita       Beaumont/SE      Withdrawn        $5,291,500 Improve terminal and ARFF buildings;
           Texas Regional      1/5/06                    replace windcones, fencing, lighting, and
                                                         signage; and replace or repair an ARFF
                                                         vehicle
 Rita       Lake Charles     Withdrawn        $7,905,900 Rehabilitate terminal, ARFF facilities, and
                               1/4/06                    signage

 Katrina      New Orleans        Withdrawn          $15,200,000 Rehabilitate rescue and firefighting
                                  12/14/05                      facilities, rehabilitate lighting and signage,
                                                                enhance security, and improve airfield
                                                                drainage and runway safety area
 Katrina      Baton Rouge           Open              $550,000 Update Master Plan to incorporate
                                                                hurricane damage
 Katrina    State of Louisiana   Withdrawn           $6,809,451 (1) Rehabilitate runways, taxiways,
 and Rita                        11/15/05                       lighting, and ARFF building and improve
                                                                perimeter fencing (at Lakefront) and
                                                                (2) rehabilitate lighting and improve
                                                                perimeter fencing (at Chennault)
Source: FAA Southern and Southwest Region Airports Offices



Table 3. Grant Totals for Southern and Southwest Regions*
 Total Southern Region Grants             $4,713,443
 Total Southwest Region Grants           $35,756,851
 Total Hurricane Grants                  $40,470,294

* Table not shown in original document. This information is presented separately here to
  comply with Section 508 standards.
